NO.
IN THE SUPREME COURT OF THE UNITED STATES

AUSTIN PETERSON,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner Austin Peterson, pursuant to Supreme Court Rule 39 and 18
U.S.C. ยง 3006(d)(7), asks for leave to file the attached Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit without prepayment of
costs and to proceed in forma pauperis. Petitioner was represented by appointed
counsel on appeal to the United States Court of Appeals for the Ninth Circuit.
Dated this 13th day of August, 2020.
Respectfully submitted,
/s/ Cristen C. Thayer
Cristen C. Thayer
Assistant Federal Public Defender
Office of the Federal Public Defender
411 E. Bonneville Ave., Suite 100
Las Vegas, Nevada 89101
(702) 388-6577
Cristen_Thayer@fd.org
Counsel for Petitioner Austin Peterson

